                            U.S. Department of Agriculture

                                Office of Inspector General
                                           Northeast Region




                Audit Report

 Cooperative State Research, Education, and
Extension Service’s National Research Initiative
         Competitive Grants Program




                                   Report No.13601-1-Hy
                                              May 2008
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




May 30, 2008


REPLY TO
ATTN OF:       13601-1-Hy

TO:            Colien Hefferan
               Administrator
               Cooperative State Research, Education, and
               Extension Service

ATTN:          Ellen Danus
               Chief
               Policy, Oversight, and
                Funds Management Branch

FROM:          Robert W. Young /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Cooperative State Research, Education, and Extension Service’s
               National Research Initiative Competitive Grants Program


This report presents the results of the subject audit. Your response to the official draft report,
dated April 25, 2008, is included as Exhibit A. Excerpts from your response and the Office of
Inspector General’s position are incorporated into the Findings and Recommendations section of
the report. Based on your response, we have reached management decision on the report’s three
recommendations. Please follow your agency’s internal procedures in forwarding
documentation for final action for the recommendations to the Office of the Chief Financial
Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Cooperative State Research, Education, and Extension Service’s National Research
Initiative Competitive Grants Program (Audit Report No. 13601-1-Hy)

Results in Brief                       We evaluated the Cooperative State Research, Education, and Extension
                                       Service’s (CSREES) National Research Initiative Competitive Grants
                                       Program (NRICGP) to ensure that high-priority research areas were funded
                                       and we evaluated the adequacy of CSREES’ management controls to ensure
                                       that funds were used for the intended purposes. NRICGP, CSREES’ largest
                                       competitive grant program, funds research on key problems in biological,
                                       environmental, physical, and social sciences related to agriculture, food, the
                                       environment, and communities. Funding for NRICGP has increased steadily
                                       over the last several years from $105 million in fiscal year (FY) 2001 to
                                       approximately $183 million in FY 2006.

                                       In coordination with a Departmentwide review of the implementation of the
                                       U.S. Department of Agriculture’s (USDA) renewable energy programs, we
                                       also evaluated CSREES’ agencywide actions to address the Presidential
                                       initiative for renewable energy. To accomplish our objectives, we reviewed
                                       applicable regulations and policies, interviewed pertinent personnel, and
                                       reviewed how CSREES was using the Current Research Information System
                                       (CRIS) 1 in conjunction with its funded grant projects. We also visited
                                       4 universities and examined 14 grants totaling $5,074,520. 2

                                       We found that CSREES has implemented processes for evaluating,
                                       prioritizing, and funding grant proposals. However, CSREES did not have
                                       documented procedures to ensure that grant awards did not duplicate other
                                       grants and to monitor the results of research efforts and the use of grant
                                       funding. CSREES relied on information recorded in CRIS to monitor
                                       research efforts. 3 CSREES also relied on the agency’s national program
                                       leaders to check CRIS using keyword searches for overlapping objectives in
                                       grant proposals. However, the agency did not develop written guidance on
                                       how CSREES staff should use CRIS as an oversight tool (e.g., check for
                                       duplicate funding or monitor work performed). As a result, CSREES has
                                       reduced assurance that grant funds are used for intended purposes.

                                       For example, a CSREES-funded grant project team was unable to take
                                       advantage of an alternative process developed by another grant project team

1
    CRIS is the USDA's documentation and reporting system for ongoing and recently completed research and education projects in agriculture, food and
    nutrition, and forestry. Projects are conducted or sponsored by USDA research agencies, State agricultural experiment stations, land grant universities,
    other cooperating State institutions, and participants in CSREES-administered grant programs, including the Small Business Innovation Research and
    National Research Initiative, and the programs administered by the CSREES Science and Education Resources Development unit.
2
    Renewable energy-related grants comprised 13 of the 14 grants totaling $4,722,520.
3
    As a step toward integrating CSREES reporting systems, the agency released changes to the traditional CRIS reporting system on October 1, 2007,
    which changed, among other items, how accomplishments were reported. The revised accomplishment report contains the same reporting categories
    and guidance for research, extension, and education projects and the report will provide a more consistent format for project directors who may be
    reporting on multiple types of CSREES grants.

USDA/OIG-A/13601-1-Hy                                                                                                                             Page i
                                     and apply it to their research prior to attending a seminar in March 2007. The
                                     principal investigator from a Virginia university posted information
                                     pertaining to the process on CRIS. This information was available in CRIS
                                     over 6 months prior to the March 2007 seminar but went unnoticed by the
                                     North Carolina project team. Researchers identify the similar research
                                     through CRIS searches based on project titles not the processes used in the
                                     research. If CSREES had adequate controls in place for oversight, the
                                     alternative process identified by the Virginia university’s grant project team
                                     could have saved time and money for other grant project teams.

                                     We also found that CSREES has not fully reported all renewable energy
                                     activity to the Office of Budget and Program Analysis (OBPA). This
                                     occurred because CSREES’ program staff did not have the OBPA guidance 4
                                     to use to determine the activity to report. For FY 2006, CSREES reported
                                     $15,940,000 to OBPA as projects funded for renewable energy activity. 5 We
                                     identified an additional 32 grant projects, totaling over $8 million that should
                                     have been reviewed for inclusion in CSREES’ report of projects with
                                     renewable energy activity. Building on our analysis, CSREES identified
                                     another 39 renewable energy grant projects and reported them to OBPA.

Recommendations
In Brief                             CSREES should document its procedures to review CRIS for duplicate
                                     research funding and develop and implement a process for monitoring
                                     grantee operations and coordinating information between teams performing
                                     complementary research. CSREES also needs to incorporate OBPA’s
                                     guidance into the internal CRIS searches.

Agency Response
                                     CSREES agreed with the report’s three recommendations. CSREES will be
                                     implementing them by documenting policies and procedures to review CRIS
                                     for duplicate research; developing and implementing guidelines on the use of
                                     CRIS to monitor grantee operations and coordinate information; and
                                     incorporating OBPA guidelines into the internal CRIS search engine.

                                     We have incorporated CSREES’ response in the Finding and
                                     Recommendations section of this report along with the OIG position.
                                     CSREES’ response to the draft report is included, in its entirety, in exhibit A.

OIG Position
                                     Based on CSREES’ response, we were able to reach management decision on
                                     the report’s three recommendations.



4
    OBPA guidance lists everything that should be included when reporting on energy-related projects. This guidance is part of the Departmental Budget
    Manual that OBPA updates annually for the preparation of budget documents.
5
    CSREES did not identify the number of grant projects associated with this funding.

USDA/OIG-A/13601-1-Hy                                                                                                                       Page ii
Abbreviations Used in This Report


AEI                 Advanced Energy Initiative
CRIS                Current Research Information System
CSREES              Cooperative State Research, Education, and Extension Service
DOE                 Department of Energy
EPAct               Energy Policy Act of 2005
EPA                 Environmental Protection Agency
FY                  Fiscal Year
NIH                 National Institutes of Health
NPL                 National Program Leader
NRI                 National Research Initiatives
NRICGP              National Research Initiative Competitive Grant Program
NSF                 National Science Foundation
OBPA                Office of Budget and Program Analysis
OIG                 Office of Inspector General
PD                  Project Director
USDA                U.S. Department of Agriculture




USDA/OIG-A/13601-1-Hy                                                              Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1:           Strengthen Oversight of Funded Grant Projects .................................................... 4

        Finding 1             ……......................................................................................................................... 4
                                Recommendation 1 .......................................................................................... 6
                                Recommendation 2 .......................................................................................... 7

    Section 2:           Inconsistent Information Reported on Renewable Energy.................................... 8

        Finding 2             …............................................................................................................................. 8
                                  Recommendation 3 .......................................................................................... 9

Scope and Methodology........................................................................................................................ 11

Exhibit A – Agency Response .............................................................................................................. 13




USDA/OIG-A/13601-1-Hy                                                                                                                             Page iv
Background and Objectives
Background                             Congress created the Cooperative State Research, Education, and Extension
                                       Service (CSREES) through the 1994 Department Reorganization Act. 6
                                       CSREES’ unique mission is to advance knowledge for agriculture, the
                                       environment, human health and well-being, and communities by supporting
                                       research, education, and extension programs in the Land-Grant University
                                       System 7 and other partner organizations. Although CSREES does not
                                       perform actual research, education, and extension, it provides funding and
                                       program leadership at the State and local level.

                                       CSREES awards competitive grants for fundamental and applied research,
                                       extension, and higher education activities, as well as for projects that
                                       integrate research, education, and extension functions. Competitive programs
                                       enable CSREES to attract a large pool of applicants to work on agricultural
                                       issues of national interest and to select the highest quality proposals
                                       submitted by qualified individuals, institutions, or organizations. Awards are
                                       made following a rigorous peer review process. Eligibility, administrative
                                       rules, and procedures vary for each specific program according to authorizing
                                       statutes.

                                       The National Research Initiative Competitive Grants Program (NRICGP) is
                                       CSREES’ largest competitive grant program. The program funds research on
                                       key problems of national and regional importance in biological,
                                       environmental, physical, and social sciences relevant to agriculture, food, the
                                       environment, and communities. The resulting new scientific and
                                       technological discoveries necessitate efforts in education and extension to
                                       deliver science-based knowledge to people, thereby promoting informed
                                       practical decision making. NRICGP is regulated by Title 7 Code of Federal
                                       Regulations, Part 3411-NRICGP.

                                       NRICGP is open to a wide variety of public, private, and non-profit
                                       organizations. Funding is approved for selected grant proposals following a
                                       competitive, scientific peer-review process. Funding is targeted at increasing
                                       the competitiveness of U.S. agriculture; improving human health through an
                                       abundant, safe food supply; and sustaining the quality and productivity of the
                                       natural resources upon which agriculture depends. Since fiscal year
                                       (FY) 2003, appropriation law has allowed a portion of the annual NRICGP
                                       budget to support integrated research, education, and extension projects.
                                       Within CSREES, “integrated” is defined as bringing the components of
                                       research, education, and extension together around a problem area or activity.

6
    USDA combined the former Cooperative State Research Service and Extension Service into a single agency, CSREES. This move united the research,
    education, and extension portfolios of both agencies and consolidated their expertise and resources under one leadership structure.
7
    The land grant university system identifies all colleges or universities that have been designated by its State legislature or Congress to receive unique
    Federal support.

USDA/OIG-A/13601-1-Hy                                                                                                                             Page 1
                                     In FY 2006, CSREES estimated that approximately $183 million would be
                                     available for support of this program and no more than 20 percent of this
                                     amount would be made available to fund integrated projects. The remaining
                                     funds would be used to fund other research projects. Funding for NRICGP
                                     has increased steadily for the last 5 years from $105 million in FY 2001 to
                                     over $179 million in FY 2005.

                                     The Energy Policy Act of 2005 (EPAct) was intended to establish a
                                     comprehensive, long-range energy policy. The EPAct provides tax incentives
                                     and loan guarantees for traditional energy production as well as newer, more
                                     efficient energy technologies, and conservation. The main agriculture
                                     renewable energy provisions are: authorization of loan guarantees for
                                     renewable energy; requirements to increase the volume of biofuels that must
                                     be mixed with gasoline; authorization to provide funds for wind energy and
                                     other alternative energy measures; creation of a biomass grant program; and
                                     various tax credits for such things as renewable electricity production, energy
                                     efficiency, and alternative motor vehicles and fuels.

                                     Renewable energy is derived from resources that are regenerative and cannot
                                     be depleted. Efforts to advance renewable energy are designed to help create
                                     and strengthen partnerships and the strategies necessary to accelerate
                                     commercialization of renewable energy industries and distribution systems.
                                     This is a goal of the President’s Advanced Energy Initiative (AEI). 8

                                     Since 1999, the U.S. Department of Agriculture (USDA) has been working
                                     with the U.S. Department of Energy on aspects of renewable energy. In
                                     accordance with the Biomass Research and Development Act of 2000, 9 the
                                     two Departments cooperate in the development of polices and procedures to
                                     promote research and development toward the production of biobased fuels
                                     and products.

                                     The 2002 Farm Bill established the Renewable Energy System and Energy
                                     Efficiency Improvement Program. In FYs 2005 and 2006, CSREES funded
                                     32 ongoing energy related projects. The agency has invested approximately
                                     $10.9 million into these projects and is currently funding energy-related
                                     research at a rate of $5.4 million per year.

                                     CSREES monitors renewable energy funded grants through an annual
                                     meeting held for each research program category and through the Current
                                     Research Information System (CRIS). Research results are presented at the
                                     annual meeting. The most recent meeting for the renewable energy category
                                     was held on March 12, 2007.


8
    Another goal of the AEI is to reduce America’s dependence on imported energy sources.
9
    The Biomass Research and Development Act calls for a multi-agency effort to coordinate and accelerate all Federal biobased products and bioenergy
    research and development.

USDA/OIG-A/13601-1-Hy                                                                                                                      Page 2
Objectives         The objectives of this audit were to: (1) evaluate the effectiveness of
                   CSREES’ implementation of NRICGP to ensure that high-priority research
                   areas were funded and (2) evaluate the adequacy of CSREES’ management
                   controls to ensure that funds were used for the intended purposes.
                   Specifically, we examined how priorities were established and how funding
                   was allocated to the priority research areas.

                   In coordination with a review of the implementation of USDA’s renewable
                   energy programs, we also evaluated CSREES’ agencywide actions related to
                   renewable energy projects. Specifically, we assessed key internal controls
                   related to CSREES’ efforts to determine the feasibility of proposed
                   renewable energy projects. We evaluated CSREES’ planning, coordination,
                   and monitoring of the projects; and assessed CSREES’ processes for
                   determining and reporting on the effectiveness and results of completed
                   projects.




USDA/OIG-A/13601-1-Hy                                                                 Page 3
Findings and Recommendations
Section 1:              Strengthen Oversight of Funded Grant Projects

Finding 1                               ……
                                        CSREES did not have documented procedures to ensure grant awards did not
                                        duplicate other grants and to monitor the results of research efforts. In
                                        FYs 2005 and 2006, CSREES issued grants totaling over $362 million within
                                        NRICGP. CSREES relied on information recorded in CRIS 10 to monitor
                                        research efforts performed with grant funding. However, the agency did not
                                        develop written guidance on how CSREES’ staff should use CRIS as an
                                        oversight tool (e.g., check for duplicate funding or monitor work performed).
                                        As a result, CSREES has reduced assurance that grant funds are used
                                        properly and grantees are performing work appropriate to their approved
                                        applications.

                                        Departmental guidance, 11 states that all agencies will implement appropriate,
                                        cost-effective controls for all processes which support the delivery of agency
                                        programs and operations. These controls should be included in the policies
                                        and procedures used to ensure that programs achieve their intended results
                                        and resources are used for intended purposes.

                                        CSREES has implemented processes within NRICGP for evaluating and
                                        prioritizing grant proposals for approval and funding. However, as part of the
                                        pre-award process, CSREES officials explained that the agency’s process to
                                        check for any type of duplicate funding was informal. The CSREES national
                                        program leaders (NPL) 12 check CRIS using keyword searches for overlapping
                                        objectives in grant proposals. There was no written guidance requiring the
                                        CRIS review be performed nor any requirement that the results be
                                        documented. CSREES should develop and implement controls that make the
                                        review of CRIS a standard operating procedure in their pre-award process.

                                        Once a grant is funded, CSREES uses information recorded in CRIS, along
                                        with annual meetings with project researchers to monitor the use of grant
                                        funding to oversee its approved projects. However, CSREES needs to
                                        strengthen its control structure for monitoring grant performance. For
                                        example, there are no specific procedures or guidelines stating how CRIS is

10
     CRIS is USDA’s documentation and reporting system for ongoing and recently completed research and education projects in agriculture, food and
     nutrition, and forestry. Projects are conducted or sponsored by USDA research agencies, State agricultural experiment stations, land-grant universities,
     other cooperating State institutions, and participants in CSREES-administered grant programs. As a step toward integrating CSREES reporting systems,
     the agency released changes to the traditional CRIS reporting system on October 1, 2007, which changed, among other items, how accomplishments
     were reported. The revised accomplishment report contains the same reporting categories and guidance for research, extension, and education projects
     and the report will provide a more consistent format for project directors who may be reporting on multiple types of CSREES grants.
11
     Departmental Regulation 1110-002 – Management Accountability and Control, dated April 2004.
12
     The role of the NPL is to advance knowledge for agriculture, the environment, human health and well-being, and communities. It is the NPL’s
     responsibility to conceive, formulate, direct, administer, manage, evaluate, assess, network, and collaborate to ensure that the CSREES mission is
     fulfilled.

USDA/OIG-A/13601-1-Hy                                                                                                                             Page 4
                                        to be used within CSREES or how it can be used as an oversight tool. In
                                        addition, CSREES did not require grantees to routinely update CRIS with
                                        specific information on advances made and results achieved through the
                                        NRICGP funding. Grantees were only required to update CRIS on the
                                        project’s anniversary date, documenting overall progress and identifying any
                                        publications issued. CSREES officials stated annual CRIS updates and
                                        meetings would address any results and progress made. NPLs noted if the
                                        grantees do not update the CRIS, they would not receive their funding the
                                        following year. This process, however, does not ensure that research results
                                        are timely shared with other teams performing complementary research.

                                        For example, we found that 1 of the 14 funded research grants reviewed was
                                        not able to take advantage of a process developed by another grant team and
                                        apply the process to their research until after learning of the process at a
                                        seminar in March 2007. The focus of the research, by a university in North
                                        Carolina, is to determine the property evaluation 13 of genetically engineered
                                        wood from aspen with down-regulated lignin 14 enzymes. At the seminar, the
                                        principal investigator from a Virginia university explained a process for
                                        property determination, which employed a different analytical method using
                                        a specialized type of microscope. By using novel rheological 15 tools the
                                        principal investigator from North Carolina was able to gain a new way of
                                        evaluating the progress of his research. The principal investigator from
                                        Virginia had posted information pertaining to the process on CRIS, over
                                        6 months earlier. However, this went unnoticed by the principal investigator
                                        at the university in North Carolina until it was presented at the meeting. If
                                        CSREES had adequate controls in place for oversight, the alternative process
                                        identified by the Virginia university’s grant project team could have saved
                                        time and money for other grant project teams.

                                        Researchers can use CRIS data to make contact with other scientists doing
                                        similar research. Researchers identify the similar research through CRIS
                                        searches based on project titles not the techniques used in the research. The
                                        method for using the microscope (i.e., the technique) was the information that
                                        needed to be shared with the principal investigator at the university in North
                                        Carolina.

                                        Had CSREES established procedures for using CRIS as an oversight tool, the
                                        NPL could have used CRIS to share information between projects with
                                        complementary objectives. Coordinating the information could have
                                        expedited the research at the university in North Carolina since it already
                                        possessed all the tools needed to conduct research using this new process.


13
     This project was to determine what type of properties were displayed in certain types of wood to gain a more fundamental understanding of the effect of
     lignin enzymes on strength, shrinkage and swelling, and visoelasticity of wood.
14
     A complex polymer is the chief noncarbohydrate constituent of wood that binds to cellulose fibers and strengthens the cell walls of plants.
15
     Rheology is the study of the deformation and flow of matter.

USDA/OIG-A/13601-1-Hy                                                                                                                            Page 5
                   Overall, we found that CSREES has implemented a process for evaluating
                   and prioritizing grant proposals, making their pre-award grant administration
                   process strong. To strengthen CSREES actions to prevent duplicate funding,
                   CSREES should document procedures for reviewing CRIS before awarding
                   grants. CSREES should also enhance the agency’s post-award actions to
                   monitor grant performance.

Recommendation 1
                   Document the policies and procedures to review CRIS for duplicate research
                   before awarding grants to recipients.

                   Agency Response

                   CSREES concurs. The National Research Initiative (NRI) takes great care in
                   addressing the issue of duplicate research in reviewing and funding grant
                   proposals. In general there are two possible types of duplicative research:
                   1) supporting one investigator from two sources for the same work and
                   2) funding duplicate research in separate projects by two different
                   investigators.

                   Using CRIS to check for duplicate research before awarding grants to
                   recipients is one tool for identifying similar or identical work supported by
                   CSREES. To formalize the use of CRIS for this purpose, a section will be
                   added to the “Award Recommendations” section of the NRI Operations
                   Manual and accordingly, the associated business processes will be
                   implemented.

                   Another tool used by the NRI to avoid duplicate funding is the “Current and
                   Pending Support” form submitted with every application. This form lists
                   current grants and pending applications for funding for all of the investigators
                   involved in the project. These are systematically checked to insure that no
                   investigator is double funded for the same work. Many NRI applicants also
                   receive funding from other agencies such as the National Science Foundation
                   (NSF), the National Institutes of Health (NIH), or the Department of Energy
                   (DOE). Use of the Current and Pending Support form captures all possible
                   sources of duplicate funding, including NSF, NIH, or DOE funding.

                   Use of the Current and Pending Support form is documented in the current
                   update of the NRI Operation Manual. The target date for revision of the NRI
                   Operation Manual and implementation of the associated business process is
                   July 31, 2008.

                   OIG Position

                   We accept CSREES’ management decision.

USDA/OIG-A/13601-1-Hy                                                                       Page 6
Recommendation 2
                   Develop and implement guidelines on how to use CRIS to monitor grantee
                   operations and to coordinate information between teams performing
                   complementary research.

                   Agency Response

                   CSREES concurs. The NRI has historically relied heavily on the use of CRIS
                   reports to monitor grantee progress and continues to use them today. This
                   process is not currently well documented in the NRI Operations Manual,
                   however. Therefore, a section will be added to the “Award Oversight” section
                   of the NRI Operations Manual and accordingly, the associated
                   monitoring/oversight processes will be implemented.

                   In addition, to gain a more in-depth understanding of project status and
                   successes, we have in recent years added the Project Director (PD) meeting
                   as an important tool for post-award management. The use of PD meetings is
                   standard at nearly all science agencies providing Federal assistance such as
                   NSF, EPA, DOE and others.

                   At PD meetings all investigators share progress on their projects including
                   descriptions of what is working, what is not working, and breakthroughs in
                   the development of tools and methods. These meetings allow for a peer
                   discussion of the full portfolio of research supported. All investigators are
                   present to judge for themselves the usefulness of new findings in their
                   research. The PD meeting is also where PDs and NPLs can begin discussions
                   to resolve intellectual property concerns and other sensitive issues concerning
                   collaboration. These meetings improve the coordination of all program
                   activities. PD meetings are relied on across all Federal research agencies as
                   the standard tool to coordinate research projects funded by any particular
                   program.

                   In summary, a multi-faceted approach to post-award management that
                   includes the use of CRIS reports and PD meetings will allow the NRI to most
                   effectively monitor grantee operations and facilitate information exchange
                   among research teams. Target date for revision of the NRI Operations
                   Manual and implementation of the associated monitoring/oversight processes
                   is July 31, 2008.

                   OIG Position

                   We accept CSREES’ management decision.




USDA/OIG-A/13601-1-Hy                                                                      Page 7
Section 2:              Inconsistent Information Reported on Renewable Energy

Finding 2                               …..
                                        CSREES did not report all renewable energy activity to the Office of Budget
                                        and Program Analysis (OBPA). This occurred because CSREES’ program
                                        staff responsible for identifying the renewable energy activity did not have
                                        the OBPA guidance to use to determine the activity to report. As a result, the
                                        program staff used their own working definition from the 2002 Farm Bill 16
                                        and established key word searches in CRIS to identify the reportable activity.
                                        For FY 2006, CSREES reported $15,940,000 to OBPA as projects funded for
                                        renewable energy activity; 17 however, this amount was not consistent with
                                        OBPA guidance. For example, using OBPA’s guidance, we identified
                                        32 additional grants, totaling over $8 million that should have been reported
                                        for FY 2006. Building on our analysis, CSREES identified another
                                        39 renewable energy grant projects and reported them to OBPA.

                                        OBPA’s FY 2006 guidance states that the reportable grant projects should
                                        include the development and support for:

                                             •     Feedstocks and feedstock management systems for biobased products,
                                                   bio-fuels, and bioenergy;
                                             •     Expanded use of renewable energy feedstocks or production capacity
                                                   in existing renewable energy facilities; and
                                             •     Projects increasing energy independence and U.S. energy security. 18

                                        These activities are reported to OBPA for reporting what funds were used to
                                        support Energy Related Programs administered by the USDA agencies.
                                        CSREES uses CRIS to identify the projects that incorporate renewable energy
                                        goals. These projects are selected based on search parameters established by
                                        the NPLs to include all the necessary key words or phrases relating to their
                                        program. 19 The search parameters are provided to the CRIS Technical
                                        Information Specialist who uses them to generate a list of funded projects. The
                                        NPLs review each project listed and judgmentally determine the renewable
                                        energy percentage of the project to be reported in CSREES’ energy report.
                                        These percentages are used to determine the amount of funding classified for
                                        renewable energy. CSREES’ budget officers use this information to report
                                        renewable energy activity to OBPA. However, without the OBPA guidance,


16
     Renewable energy means energy derived from either (a) wind, solar, biomass, or geothermal sources or (b) hydrogen derived from biomass or water
     using an energy source.
17
     CSREES did not identify the number of grant projects associated with this funding.
18
     The above is not all inclusive; OBPA’s guidance provides additional categories to be included with examples. This guidance is part of chapter 11 of the
     Departmental Budget Manual (June 1984). OBPA updates chapter 11 annually for the preparation of budget documents.
19
     These programs include any under the Formula Funding, Special Research Grants, National Research Initiative, and any other Research and Education
     Activities.

USDA/OIG-A/13601-1-Hy                                                                                                                            Page 8
                                       the NPLs cannot ensure that all qualifying projects were identified, reviewed,
                                       and reported.

                                       We found that 32 additional projects, totaling over $8 million, should have
                                       been reviewed and included in the FY 2006 CSREES’ energy report, dated
                                       February 2007. Examples of the types of projects we identified follow.

                                       •    On the grant for the “Investigation of Physicochemical Properties of
                                            Biological Materials in Bioprocess Engineering,” the grantee expended
                                            $160,385 in FY 2006 and was not in the energy report CSREES prepared.
                                            The overall objective of this project is to combine analytical techniques
                                            and engineering principles to address prioritized needs in the bioprocess
                                            engineering of bioenergy and biobased products.

                                       •    On the grant for “Commercializing Alternative Crops,” the grantee
                                            received over $1 million of funding in FY 2006. This grant’s CRIS report
                                            details goals such as to develop alternative renewable technology to
                                            manufacture environmentally responsible coatings, composites, and
                                            foams with no added Volatile Organic Compounds, 20 little-to-no odor,
                                            and reduced reliance upon petroleum-based monomers. 21


                                       CSREES’ identified another 39 renewable energy grant projects that were not
                                       detected through our analysis. Therefore, at least 71 renewable energy grant
                                       projects were not reported to OBPA. According to CSREES officials, the
                                       search parameters employed caused the differences in the identified funded
                                       grant projects. In order to correct this problem, CSREES needs to incorporate
                                       OBPA guidelines into the internal CRIS search engine used to identify
                                       projects to be included in the energy reports to OBPA.

Recommendation 3
                                       Incorporate OBPA guidelines into the internal CRIS search engine used to
                                       identify projects to be included in the energy reports to OBPA.

                                       Agency Response

                                       CSREES concurs. To comply with this recommendation, we are taking two
                                       actions. First, we will include more complete definitions for use in searching
                                       base systems such as CRIS. Second, we will insure that NPLs are instructed
                                       in how to access the definitions to be used when assigning projects to
                                       catergories.




20
     Volatile Organic Compounds are organic chemicals that have a high vapor pressure and easily form vapors at normal temperature and pressure.
21
     A molecule that can combine with others to form a polymer. A polymer is a naturally occurring or synthetic compound.

USDA/OIG-A/13601-1-Hy                                                                                                                         Page 9
                   CSREES budget staff will work with CSREES program and CRIS staff to
                   ensure that the review of renewable energy projects is based upon the latest
                   definitions provided by OBPA. Target completion date for developing and
                   implementing procedures to properly identify renewable energy activities in
                   CRIS is September 30, 2008.

                   OIG Position

                   We accept CSREES’ management decision.




USDA/OIG-A/13601-1-Hy                                                                  Page 10
Scope and Methodology
                                       We conducted our audit in accordance with Government Auditing Standards
                                       established by the Comptroller General of the United States. Those standards
                                       require that we plan and perform the audit to obtain sufficient, appropriate
                                       evidence to provide a reasonable basis for our findings and conclusions based
                                       on our audit objectives. We believe that the evidence obtained provides a
                                       reasonable basis for our findings and conclusions based on our audit
                                       objectives.

                                       Our fieldwork was performed from January 2007 through July 2007 at
                                       CSREES Headquarters in Washington, D.C., and four universities where
                                       CSREES funded research projects. The universities were located in Virginia,
                                       Michigan, North Carolina, and Wisconsin.

                                       To accomplish our audit objectives, we reviewed applicable regulations
                                       pertaining to research grants, interviewed appropriate officials, and examined
                                       a sample of funded research projects.

                                       •     We reviewed pertinent Federal regulations and documentation to
                                             familiarize ourselves with the requirements, scope, and current CSREES’
                                             process for the administration of research grants.

                                       •     We interviewed appropriate officials from CSREES Headquarters and the
                                             four universities we visited. The CSREES officials were from the
                                             agency’s budget office and the following program units: Competitive
                                             Programs, Plant and Animal Systems, and Information Systems and
                                             Technology Management.

                                       •     To complement the Office of Inspector General’s ongoing audit of
                                             USDA’s implementation of renewable energy programs, 22 we selected
                                             our grant sample by focusing our review on renewable-energy related
                                             grants in CSREES’ NRICGP. For FYs 2005 and 2006, CSREES issued
                                             grants totaling over $362 million within NRICGP. During these fiscal
                                             years, CSREES funded 32 grants related to renewable energy totaling
                                             approximately $10.9 million.

                                       •     To test CSREES oversight, we assessed the agency’s process for
                                             awarding grants, which included a peer review of potential projects. We
                                             also examined procedures used and documentation maintained for the
                                             administration of CSREES research grants and evaluated how these
22
     Specifically, we assessed key CSREES controls to determine the feasibility of proposed renewable energy projects. We also evaluated CSREES’
     planning, coordination, and monitoring of the projects; and assessed CSREES’ process for determining and reporting on the effectiveness and results of
     completed projects.

USDA/OIG-A/13601-1-Hy                                                                                                                          Page 11
                        procedures were applied to the research grants selected for review. This
                        documentation included such items as the pre-award tracking sheet,
                        pre-award jacket checklist, award review information sheet, CRIS reports,
                        grant proposals forms, proposal evaluations, peer review summaries, and
                        any additional supporting documentation located in the selected grant
                        files.

                   •    We selected for review the four universities that were awarded three or
                        more CSREES grants related to renewable energy. These 4 universities
                        were awarded 13 of the 32 renewable energy related grants in
                        FYs 2005 and 2006. We reviewed these 13 grants and 1 grant not related
                        to renewable energy. We selected the grant not related to renewable
                        energy at the first university we visited to ensure there were no
                        differences in how this grant was administered by CSREES or the
                        university. The sample of 14 grants ranged from $189,766 to $442,764
                        and totaled $5,074,520 ($4,722,520 of the total was for the 13 renewable
                        energy grants).

                   •    We researched USDA’s CRIS to determine how it has been used in
                        conjunction with funded research projects from CSREES. We developed
                        a search program in CRIS to identify projects based on OBPA’s guidance
                        and compared them to the projects identified by CSREES for the
                        preparation of the renewable energy activity data reported to OBPA.




USDA/OIG-A/13601-1-Hy                                                                    Page 12
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 8




USDA/OIG-A/13601-1-Hy                      Page 13
                        Exhibit A – Page 2 of 8




USDA/OIG-A/13601-1-Hy                Page 14
                        Exhibit A – Page 3 of 8




USDA/OIG-A/13601-1-Hy                Page 15
                        Exhibit A – Page 4 of 8




USDA/OIG-A/13601-1-Hy                Page 16
                        Exhibit A – Page 5 of 8




USDA/OIG-A/13601-1-Hy                Page 17
                        Exhibit A – Page 6 of 8




USDA/OIG-A/13601-1-Hy                Page 18
                        Exhibit A – Page 7 of 8




USDA/OIG-A/13601-1-Hy                Page 19
                        Exhibit A – Page 8 of 8




USDA/OIG-A/13601-1-Hy                Page 20
